August 11, 2008

J. RON POLAND
MANAGER, STATISTICAL PROGRAMS

SUBJECT: Management Advisory Report – In-Office Cost System Phone Readings
         Additional Analysis (Report Number ESS-MA-08-001)

This management advisory presents the results of our self-initiated review of the
potential cost implications of In-Office Cost System (IOCS) telephone readings (Project
Number 08RG014ESS000). The objective was to assess whether telephone readings
inappropriately impact the allocation of mail processing costs to mail categories. Click
here to go to Appendix A for additional information about this review.

Conclusion

Both an initial analysis by the U.S. Postal Service Office of Inspector General (OIG) and
a subsequent U.S. Postal Service analysis indicated differences in the distributions of
IOCS readings or mail processing costs to mail categories based on telephone and on-
site sampling methods. The results of IOCS readings should be independent of the
sampling methods. All other things equal, the same result should occur whether the
reading is done by telephone or performed on-site.

The Postal Service has not yet provided the OIG with sufficient data and explanations to
support a conclusion that the differences in the distributions of mail processing costs to
mail categories are statistically insignificant, immaterial, or fully explained by other
suggested factors. To the extent practicable, the Postal Service should perform
additional analyses to confirm that the sampling method did not cause these differences
and examine the appropriateness of its distribution of costs to mail categories based on
telephone readings.

Initial Analyses Indicate Differences in the Distributions of Costs to Mail
Categories Based on Telephone and On-Site Readings

The OIG issued an audit report on IOCS in March 2008 that found inaccurate telephone
readings. See Prior Audit Coverage in Appendix A for more information. Subsequently,
we worked with the Postal Service to determine whether telephone readings materially
affect the distribution of mail processing costs to mail categories and pricing. The
Postal Service performed an analysis of fiscal year (FY) 2007 IOCS data that sorted
costs for clerks and mail handlers by mail category and by reading method for groups of
Postal Service facilities (for example, processing and distribution centers [P&DCs], air




                                            1
In-Office Cost System Phone Readings Additional Analysis                        ESS-MA-08-001



mail centers [AMCs], and annexes). This preliminary analysis identified differences in
the distributions of costs to mail categories based on telephone and on-site readings.

The Postal Service indicated that factors such as facility and time of day could explain
the differences; however, the analysis reviewed a selected group of facilities and did not
include controls for time of day. Thus, it is unclear whether we can attribute the
differences in the distributions of costs identified by this preliminary analysis to
plausible, reasoned causes or to inaccuracies in telephone readings. Inaccurate
telephone readings could distribute costs inappropriately across mail categories,
resulting in an inaccurate basis for pricing. Click here to go to Appendix B for our
detailed analysis of this topic.

We recommend the Manager, Statistical Programs, direct his staff to:

   1. Perform a comprehensive analysis to determine whether material errors exist in
      the distribution of In-Office Cost System mail processing costs to mail categories
      based on telephone readings and on-site readings. If material errors exist, the
      Manager, Statistical Programs, should take appropriate action that could include
      short-term programmatic corrections.

       To the extent practicable, this additional analysis should adopt the following
       enhancements to the previous analytical methodology:

       •   The analysis should control for facility type, time of day, or other factors as
           appropriate. The analysis should review more finely disaggregated groups of
           facilities including, where appropriate, separate groups of individual facilities.

       •   The analysis should exclude certain subsets of the data where there are
           plausible, reasoned explanations for material differences between
           distributions of telephone and on-site costs. For example, the analysis should
           exclude facilities with 100 percent telephone readings where no suitable
           benchmark for comparison exists.

       •   The analysis should adopt and apply a standard for identifying statistical
           significance in the differences of the distributions of telephone and on-site
           costs.

   2. Continuously monitor for errors in In-Office Cost System cost distribution caused
      by the sampling method and conduct detailed assessments if errors exist at
      individual facilities or are associated with individual data collectors.

Management’s Comments

Management agreed with our finding that there are differences in the distributions of the
IOCS costs to mail categories based on telephone and on-site readings. Additionally,




                                                   2
In-Office Cost System Phone Readings Additional Analysis                         ESS-MA-08-001



management agreed that the result of the reading should be independent of its
sampling method. However, management disagreed with the OIG’s assumption that
the differences in the distributions of IOCS costs to mail categories are due to the
sampling method. Management noted that nonrandom factors, including the size of the
office, location, and time of day, affect the sampling method and the mail mix handled.
Therefore, management stated, there should be no expectation that the distribution of
costs should be the same for the two different types of readings. Management
disagreed with OIG’s estimate that $185 million of mail processing costs are affected.

Furthermore, management stated they have satisfied the first recommendation by
performing additional analysis. Management plans to follow up with further investigation
of one location that had a significantly different cost distribution in FY 2007 based on
telephone and on-site readings.

The comments indicated that management does not believe that the recommended
analysis would yield further useful results. With the available data, no analysis could
control for all the factors that could affect cost distributions and quantify the differences
that depend solely on a sampling method that is not randomly selected by a statistical
design.

Management disagreed that “errors . . . caused by the sampling method” can be
successfully identified, and stated that the OIG’s second recommendation for
continuous monitoring of the distribution of costs by facility or data collector is
problematic.

Management’s comments, in their entirety, are included in Appendix C.

Evaluation of Management’s Comments

Prior audit work found inaccurate IOCS telephone readings and indicated that those
inaccurate telephone readings could affect the distribution of mail processing costs.
The prior audit finding was the starting point for this advisory report. This review
concluded that the Postal Service should perform additional analysis to either reject or
accept the hypothesis that telephone readings cause inaccuracies in the distribution of
IOCS mail processing costs to mail categories.

This review did not assume that the sampling method alone explained the differences in
the distribution of IOCS costs. We recognized in the exploratory analysis, in the Postal
Service analysis, and in the recommendations that other factors could explain the
differences. We agree with management’s comments that factors such as size of the
office, location, and time of day affect the sampling method and the mail mix handled.
Our review recognized that the sampling method is a factor that could also affect the
distribution of costs.




                                                   3
In-Office Cost System Phone Readings Additional Analysis                      ESS-MA-08-001



We agree with management’s comments that the Postal Service should not
automatically expect the distribution of costs to be the same for the two different types
of readings. However, if all other things are equal, then we believe that there should be
an expectation that the distribution of costs should be the same.

We agree with management’s qualitative comments on the impact of facility type and
size on IOCS readings. These qualitative comments are consistent with our review’s
recommended quantitative approach.

Our report stated that, based on the Postal Service’s analysis, adjusting the distribution
of mail processing costs based on telephone readings to equal those based on on-site
readings would affect the distribution of $185 million of mail processing costs. This
estimate suggests a potential significant impact that justifies our recommendations to
use Postal Service resources for additional analysis. Until a comprehensive analysis is
performed, the actual dollar impact on specific mail products will be unknown.

The OIG considers management’s comments partially responsive to the first
recommendation. We applaud the Postal Service for performing additional analysis
and, contrary to other management comments, indicating that additional analysis along
these lines, even by individual location, is possible. Further, we applaud the Postal
Service for adopting an initial standard for identifying statistical significance. Because
this additional analysis is new, was never discussed during the review or at the exit
conference, and merits review, we cannot comment on whether the Postal Service has
satisfied this recommendation.

We disagree with management’s statement that the recommended analysis would not
yield further useful results. We agree that no analysis could control for all possible
factors. However, additional analysis would be informative and useful. Our preliminary
analysis indicates that shipping services products could be bearing more than their
share of costs. Until the Postal Service performs a comprehensive analysis as we
recommended, management’s conclusion that additional analysis would not be useful is
premature.

We consider management’s comments not responsive to the second recommendation.
We believe that the comments are inconsistent with the technical dialogue during the
review. We also believe that the Postal Service can enhance its existing analysis.
Continuous improvement is a good business practice, and we hope the Postal Service
agrees that, although difficult, continuously improving data systems and the business
application of the data is a worthwhile effort. Although we believe this recommendation
has merit, we do not intend to elevate the disagreement for resolution.




                                                   4
In-Office Cost System Phone Readings Additional Analysis                 ESS-MA-08-001



We appreciate the cooperation and courtesies extended by your staff. If you have any
questions or need additional information, please contact Mohammad Adra, Director,
Evaluations and Special Studies, or me at (703) 248-2100.

   E-Signed by Tammy Whitcomb
 VERIFY authenticity with ApproveIt




Tammy L. Whitcomb
Deputy Assistant Inspector General
for Revenue and Systems

Attachments

cc:    Patrick R. Donahoe
       Robert F. Bernstock
       Stephen M. Kearney
       David B. Shoenfeld
       Lynn Malcolm
       James P. Cochrane
       Gary C. Reblin
       Maura Robinson
       Paul E. Vogel
       William (Ashley) Lyons
       Jennifer Xie
       Katherine S. Banks




                                                   5
In-Office Cost System Phone Readings Additional Analysis                                               ESS-MA-08-001



                            APPENDIX A: ADDITIONAL INFORMATION

BACKGROUND

IOCS is an employee work sampling system used to distribute more than $32 billion in
the labor costs of clerks, mail handlers, city delivery carriers, and supervisors to classes
and subclasses of mail and special services. To efficiently conduct a large number of
IOCS readings,1 data collectors conduct about 51 percent of the readings by telephone
and the remaining 49 percent on-site.2

The OIG report titled In-Office Cost System Telephone Readings (Report Number
CRR-AR-08-004, dated March 31, 2008) presented our assessment of the accuracy of
IOCS data obtained from telephone readings. The audit found that 70 of the 163 (or 43
percent) IOCS telephone readings selected for further review in three Postal Service
districts were inaccurate.3 The readings were inaccurate because data collectors and
supervisors did not follow policies and procedures. Based on this prior audit work, we
concluded that an additional analysis was necessary to determine whether inaccuracies
in telephone readings could inappropriately affect cost distribution and pricing.

OBJECTIVE, SCOPE, AND METHODOLOGY

Our objective was to assess whether inaccurate telephone readings affect the
distribution of clerk and mail handler costs to mail classes and subclasses and special
services. We conducted an exploratory analysis to determine whether we should
further pursue discussion and analysis with the Postal Service. We used IOCS data
from FYs 2006 and 2007 to determine whether material differences existed in the
distributions of telephone and on-site readings to mail categories.4 We sorted IOCS
readings for clerks and mail handlers by mail category and by reading method for
aggregate groups of Postal Service facilities.5

Within each reading method, we computed the percentage of readings for each mail
category. We then contrasted the percentages for each mail category between
telephone and on-site reading methods. A relatively high or low ratio of telephone to
on-site percentages indicated a difference in the distribution of IOCS readings for the
mail category. The results of IOCS readings should be independent of the sampling
methods. All other things equal, the same result should be obtained whether the
reading is done by telephone or performed on-site.

1
  During FY 2007, the Postal Service conducted nearly 700,000 IOCS readings.
2
  OIG Report CRR-AR-08-004, footnote 3.
3
  OIG Report CRR-AR-08-004, page 4.
4
  Mail categories are selected groups of IOCS activity codes and relate to mail classes and subclasses and special
services.
5
  At several interim stages, the analysis covered various combinations of cost ascertainment groups (CAGs), facility
types (for example, bulk mail centers [BMCs], P&DCs, international service centers, and associate offices), and
uniform operation codes (for example, outgoing distribution, incoming distribution, and window service). However,
controlling for all plausible factors that affect cost distribution was outside the scope of our exploratory analysis.




                                                           6
In-Office Cost System Phone Readings Additional Analysis                                                ESS-MA-08-001




After our initial analysis, the Postal Service conducted its own analysis of IOCS data for
FY 2007. We reviewed this analysis to determine whether these differences were
adequately analyzed and explained.

We conducted this review from March through August 2008 in accordance with the
President’s Council on Integrity and Efficiency, Quality Standards for Inspections. We
discussed our findings and recommendations with Postal Service management on
July 3, 2008, and included their comments where appropriate.

PRIOR AUDIT COVERAGE

                                                 Final Report       Monetary           Report Results
   Report Title           Report Number              Date            Impact
In-Office Cost            CRR-AR-08-004         March 31, 2008      $12,3556 • The Postal Service had
System Telephone                                                               adequate policies for
Readings                                                                       conducting telephone
                                                                               readings.
                                                                             • Employees did not always
                                                                               follow data collection
                                                                               procedures and respondents
                                                                               may have provided inaccurate
                                                                               information.
                                                                             • The audit found that 70 out of
                                                                               163 (or 43 percent) IOCS
                                                                               telephone readings selected
                                                                               for further review were
                                                                               inaccurate.
                                                                             • Management agreed with
                                                                               recommendations to
                                                                               strengthen controls over the
                                                                               integrity of IOCS data
                                                                               collection.




6
    Incorrect leave status errors caused this monetary impact and we reported it as funds put to better use.




                                                             7
In-Office Cost System Phone Readings Additional Analysis                                               ESS-MA-08-001




                                 APPENDIX B: DETAILED ANALYSIS

INITIAL ANALYSES INDICATE DIFFERENCES IN THE DISTRIBUTIONS OF COSTS
    TO MAIL CATEGORIES BASED ON TELEPHONE AND ON-SITE READINGS

Our initial exploratory analysis showed differences between the profiles of telephone
and on-site readings for some mail categories. These results indicated that we should
work with the Postal Service to expand and enhance the analysis.

The Postal Service was very receptive and responsive to our review and discussion of
the exploratory analysis. Building on and enhancing that analysis, the Postal Service
conducted its own analysis of IOCS data for FY 2007. The Postal Service adopted a
comparable methodology that sorted IOCS costs for clerks and mail handlers by mail
category and by reading method for aggregate groups of Postal Service facilities;7
however, the Postal Service implemented the following notable enhancements:

    •    The Postal Service used IOCS costs instead of readings because readings do
         not have equal dollar weights and because of certain sampling design issues.8

    •    The Postal Service distributed direct mail processing costs to mail categories
         within Function 1 (mail processing and distribution) pools only.

    •    The Postal Service distributed direct, mixed mail, and not handling mail
         processing costs to mail categories within Function 1 pools only.

    •    The Postal Service distributed direct, mixed mail, and not handling mail
         processing costs to mail categories for Management Operating Data System
         (MODS) facility types.9

The Postal Service compared results by several facility types to illustrate the impact
when using more homogeneous groups of readings. The Postal Service stated that
“[w]hen grouped by facility types (AMC versus P&DC, etc), there is no pattern to the
phone reading differences.” The Postal Service stated that factors such as facility and
tour (the time of day) could explain the differences in the distributions of telephone and
on-site costs to mail categories. The Postal Service also stated that the appropriate
examination of results is within individual facility groups and not when facility groups are
combined.



7
  For two interim stages, the Postal Service analyzed within P&DCs, AMC/air mail facilities, logistics and distribution
centers, annexes, and other facilities.
8
  For example, the Postal Service stated that costs specifically account for different sampling rates across CAGs and
international facilities, but readings do not.
9
  MODS facility types include Function 1, Function 4, and BMCs.




                                                           8
In-Office Cost System Phone Readings Additional Analysis                                                  ESS-MA-08-001




The Postal Service’s analysis indicated differences in the distributions of costs to mail
categories based on telephone and on-site sampling methods. Additionally, the Postal
Service has not yet provided the OIG with sufficient data and explanations to support a
conclusion that the differences in the distributions of mail processing costs to mail
categories are statistically insignificant, immaterial, or fully explained by other suggested
factors.

Tables 1 and 2 present ratios of the percentages of costs distributed to mail categories
based on telephone and on-site sampling methods within the provided facility groups. A
ratio with a value of one indicates that the percentage of costs distributed to the mail
category based on telephone readings is the same as the percentage of costs
distributed to the same mail category based on on-site readings. We highlighted
individual ratios where the percentage of costs distributed to the mail category based on
telephone readings is different from the percentage of costs distributed to the same mail
category based on on-site readings.10 For example, the percentages of costs
distributed to Priority Mail® based on telephone readings are 20 percent higher within
the 1-P&DCs facility group, 70 percent lower within the Annex facility group, and 20
percent lower within the Other facility group than the percentages of costs distributed to
Priority Mail based on on-site readings. Although the Postal Service did not identify a
pattern in the telephone reading differences, it should analyze individual differences for
significance, plausible reasons for the differences, and evidence of data issues within
the facility group.

     Table 1: Ratios of Telephone to On-Site Percentages – Function 1 Pools Only




                                                       Redacted




10
  We highlighted ratios with a value greater than or equal to 1.2, or less than or equal to 0.8; however, ratios close to
or equal to 1.0 could be average values that conceal individual facilities with material differences in the distributions of
mail processing costs based on telephone and on-site readings.




                                                             9
In-Office Cost System Phone Readings Additional Analysis                                               ESS-MA-08-001




     Table 2: Ratios of Telephone to On-Site Percentages – MODS Facility Types




                                                     Redacted




The Postal Service stated that factors such as facility and time of day could explain the
differences in the distributions of costs to mail categories based on telephone and on-
site readings; however, the Postal Service’s analysis reviewed a selected group of
facilities and did not include controls for time of day. Thus, it is unclear whether the
differences in the distributions of costs identified by this preliminary analysis can be
attributed to plausible, reasoned causes or to inaccuracies in telephone readings.
Inaccurate telephone readings could distribute costs inappropriately across mail
categories. Based on the Postal Service’s analysis, adjusting the distribution of mail
processing costs based on telephone readings to equal those based on on-site
readings11 would affect the distribution of about $185 million in mail processing costs.12

OTHER MATTERS OF INTEREST

During our research, we reviewed the Statistical Programs National Performance
Assessment (NPA) Indicator, IOCS Clerk and Mailhandler Readings at Post Offices,
Stations, and Branches,13 which reports on IOCS readings. We observed a high
proportion of telephone readings for several geographic locations where Postal Service
facilities are located close to each other. For example, in the Northern Virginia, Central
Florida, and Greensboro Districts, a majority of stations and branches have 100 percent
telephone readings, although it is likely that data collectors are located nearby. We also
observed similar geographic locations where many stations and branches had a low

11
   Because costs are redistributed from one mail category to another, the net sum of the redistributed costs is zero.
We compute the total impact by adding the positive or, alternatively, the negative net redistributed costs by mail
category.
12
   The Postal Service distributes other attributable costs to mail classes, subclasses, and special services based on
the distribution of mail processing costs. Although this report excludes the impact of distributing other attributable
costs, the impact could be material.
13
   These data are from the National Performance Admin System, http://eagnmnsxed1/NPA/welcomeAdmin.jsp
(authorized access required).




                                                          10
In-Office Cost System Phone Readings Additional Analysis                  ESS-MA-08-001




proportion of telephone readings. A more formal analysis was outside the scope of this
research, but we encourage the Postal Service to review such activity and identify
opportunities to efficiently replace telephone readings with on-site readings.




                                                  11
In-Office Cost System Phone Readings Additional Analysis   ESS-MA-08-001




                       APPENDIX C: MANAGEMENT’S COMMENTS




                                                  12
In-Office Cost System Phone Readings Additional Analysis   ESS-MA-08-001




                                                  13
In-Office Cost System Phone Readings Additional Analysis   ESS-MA-08-001




                                                  14
In-Office Cost System Phone Readings Additional Analysis   ESS-MA-08-001




                                                  15
In-Office Cost System Phone Readings Additional Analysis   ESS-MA-08-001




                                                  16
